Docket No. 20-253

IN rHn

Supreme Court of the United States

CHnrsropHER CASTAGNA; GAVrN CASTAGNA
Petition ers,
U

Hannv Jnau; KprrH KarlaN; DanaN Eowanns,
Respondents,

On Petition for Writ of Certiorari
United States Court of Appeals for the First Circuit

REPLY BRIEF IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI

Paul J. Klehm, Esq.
Counsel of Record
Krasnoo, Klehm & Falkner LLP
28 Andover Street, Suite 240
Andover, MA 01810
(e78) 475-ee55
pklehm@kkf-attorneys.com
On Petition:
James B. Krasnoo, Esq.
j krasnoo@kkf- attorneys. com
Benjamin L. Falkner Esq.
bfalkner@kkf- attorneys. com

REPLY BRIEF
On Pages 13 through 17 of the Respondents'Brief in Opposition, the
Respondents argue that their entry into the home was justified by the emergency

aid exception to the warrant requirement. In footnote 8 of the First Circuit ruling
at issue, the First Circuit wrote, "[o]n appeal, the officers also argue that they are

entitled to qualified immunity because their entry fell within the emergency aid
exception to the warrant requirement. We need not reach this argument." (See

Castagnau Jean,955 F.3d 211,2I8, n.8 (lst Cir.2020); App.1 15a, n.8; Petition, p
7, n. 5). As a result, the emergency aid exception is not before this Court.
Res

sub

aul J.
Counsel of Record
James B. Krasnoo
Benjamin L. Falkner
Krasnoo, Klehm & Falkner LLP
28 Andover Street, Suite 240
Andover, MA 01810
(e78) 475-9955
pklehm@hhf-attorney

Dated: November 9,2020

t "App." refers to the Appendix to the petition for writ
of certiorari

s.

com

